No. 20A136

SOUTH BAY UNITED PENTECOSTAL CHURCH, AND BISHOP ARTHUR HODGES III,
Applicants,
v.
GAVIN NEWSOM, IN HIS OFFICIAL CAPACITY AS THE GOVERNOR OF CALIFORNIA; XAVIER
BECERRA, IN HIS OFFICIAL CAPACITY AS THE ATTORNEY GENERAL OF CALIFORNIA;
SANDRA SHEWRY, IN HER OFFICIAL CAPACITY AS ACTING CALIFORNIA PUBLIC HEALTH
OFFICER; WILMA J. WOOTEN, IN HER OFFICIAL CAPACITY AS PUBLIC HEALTH OFFICER,
COUNTY OF SAN DIEGO; HELEN ROBBINS-MEYER, IN HER OFFICIAL CAPACITY AS
DIRECTOR OF EMERGENCY SERVICES, COUNTY OF SAN DIEGO; AND WILLIAM D. GORE,
IN HIS OFFICIAL CAPACITY AS SHERIFF, COUNTY OF SAN DIEGO,
Respondents.

CERTIFICATE OF SERVICE
I, Alex J. Luchenitser, a member of the Bar of this Court and counsel for the
amici on the accompanying Motion by Religious and Civil-Rights Organizations, with
Attached Proposed Amicus Curiae Brief in Support of Respondents and in Opposition
to Emergency Application for Writ of Injunction, for Leave (1) to File the Brief, (2) to
Do So in an Unbound Format on 8½-by-11-inch Paper, and (3) to Do So w ithout Ten
Days’ Advance Notice to the Parties, certify that on this 27th day of January, 2021 , I
caused three copies of the motion and amicus brief to be served by overnight carrier
and electronically on the following:
Charles S. LiMandri
LiMandri & Jonna LLP
P.O. Box 9120
Rancho Santa Fe, CA 90267
cslimandri@limandri.com
Counsel for applicants

Todd Grabarsky, Deputy Attorney General
300 South Spring Street, Suite 1702
Los Angeles, CA 90013
Todd.Grabarsky@doj.ca.gov
Seth.Goldstein@doj.ca.gov

Counsel for respondents

I further certify that all parties required to be served have been served.

_________________________________________________

Alex J. Luchenitser

